CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma,
Petitioners,
v.
Shawn Thomas Jones,
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the STATE
by mailing three (3) true and correct copies of the
same by USPS Priority mail, prepaid for delivery to the following address.
OF OKLAHOMA PETITION FOR WRIT OF CERTIORARI,

Kristi Christopher
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
(405) 801-2770
Kristi.Christopher@oids.ok.gov
Counsel for Shawn Thomas Jones

Lucas DeDeus

September 17, 2021
SCP Tracking: Mansinghani-Office of the Oklahoma Attorney General-Cover White

